     Department of Homeland Security

     2IÀFHRI,QVSHFWRU*HQHUDO


  FEMA Should Recover $985,887 of Ineligible and 

Unneeded Public Assistance Grant Funds Awarded to 

   Cobb County, Georgia, as a Result of Severe 

              Storms and Flooding





OIG-14-124-D                            August 2014

                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security
                                        Washington, DC 20528 / www.oig.dhs.gov


                                                August 7, 2014

MEMORANDUM FOR:	                       Andrew Velasquez III
                                       Acting Regional Administrator, Region IV
                                       Federal Emergency Management Agency


FROM:                                  John V. Kelly
                                       Assistant Inspector General
                                       Office of Emergency Management Oversight

SUBJECT:                               FEMA Should Recover $985,887 of Ineligible and Unneeded
                                       Public Assistance Grant Funds Awarded to Cobb County,
                                       Georgia, as a Result of Severe Storms and Flooding
                                       FEMA Disaster Number 1858-DR-GA
                                       Audit Report Number OIG-14-124-D

We audited Public Assistance funds awarded to Cobb County, Georgia (County) (FIPS
Code 067-99067-00). Our audit objective was to determine whether the County
accounted for and expended Federal Emergency Management Agency (FEMA) funds
according to Federal regulations and FEMA guidelines.

The County received a Public Assistance grant award of $7.7 million from the Georgia
Emergency Management Agency (Georgia), a FEMA grantee, for damages resulting from
severe storms and flooding, which occurred in September 2009. The award provided
75 percent FEMA funding for debris removal, emergency protective measures, and
permanent repairs to buildings and facilities. The award consisted of 32 large projects
and 184 small projects. 1

We audited 12 large and 19 small projects with awards totaling $3.0 million (see Exhibit,
Schedule of Projects Audited and Questioned Costs). The audit covered the period
September 18, 2009, to June 21, 2013, during which the County incurred $2.6 million in
costs for the projects reviewed. At the time of our audit, the County had completed
work on all large projects included in our scope, but had not submitted a final claim to
Georgia for all project expenditures.

Table 1 shows the gross and net award amounts before and after insurance reductions
for all projects and for those in our audit scope.


1
    Federal regulations in effect at the time of disaster set the large project threshold at $64,200.
                                             
                    OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


                        Table1.GrossandNetAwardAmounts

                        GrossAward              Insurance          NetAward
                           Amount                Reductions           Amount
AllProjects               $10,508,786              ($2,775,426)          $7,733,360
AuditScope                 $2,999,170                  ($7,813)          $2,991,357
                                             
                              Source:FEMAProjectWorksheets

WeconductedthisperformanceauditbetweenJanuary2014andJune2014pursuantto
theInspectorGeneralActof1978,asamended,andaccordingtogenerallyaccepted
governmentauditingstandards.Thosestandardsrequirethatweplanandperformthe
audittoobtainsufficient,appropriateevidencetoprovideareasonablebasisforour
findingsandconclusionsbaseduponourauditobjective.Webelievethattheevidence
obtainedprovidesareasonablebasisforourfindingsandconclusionsbaseduponour
auditobjective.Toconductthisauditweappliedthestatutes,regulations,andFEMA
policiesandguidelinesineffectatthetimeofthedisaster.

WeinterviewedCounty,Georgia,andFEMApersonnel;gainedanunderstandingofthe
County’smethodofaccountingfordisasterͲrelatedcostsanditsprocurementpolicies
andprocedures;judgmentallyselectedandreviewed(generallybasedondollar
amounts)projectcostsandprocurementtransactionsfortheprojectsincludedinour
review;reviewedapplicableFederalregulationsandFEMAguidelines;andperformed
otherproceduresconsiderednecessarytoaccomplishourauditobjective.Aspartofour
standardauditingprocedures,wealsonotifiedtheRecoveryAccountabilityand
TransparencyBoardofallcontractsthesubgranteeawardedunderthegrantto
determinewhetherthecontractorsweredebarredorwhethertherewereany
indicationsofotherissuesrelatedtothosecontractorsthatwouldindicatefraud,waste,
orabuse.Asofthedateofthisreport,theRecoveryAccountabilityandTransparency
Board’sanalysisofcontractswasongoing.Whenitiscomplete,wewillreviewthe
resultsanddeterminewhetheradditionalactionisnecessary.Wedidnotperforma
detailedassessmentoftheCounty’sinternalcontrolsapplicabletoitsgrantactivities
becauseitwasnotnecessarytoaccomplishourauditobjective.
                                                
                                                
                               




www.oig.dhs.gov                                                                    OIGͲ14Ͳ124ͲD
                                             2
                                                    
                       OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

                                    RESULTSOFAUDIT
                                              
FEMAshouldrecover$985,887ofthe$7.7millioningrantfundsawardedtothe
County.AlthoughtheCountyaccountedforFEMAfundsonaprojectͲbyͲprojectbasis,
theCounty’sclaimincluded$557,943ofprojectcoststhatinsurancecovered.Wealso
identified$427,944ofunneededprojectfundingthatFEMAcandeobligateandputto
betteruse.Finally,theCountydidnotincludeallrequiredcontractprovisionsin
contractsitawardedfordisasterworkanddidnotadheretotheSingleAuditAct
requirements.

FindingA:CostsCoveredbyInsurance

TheCountyclaimed$557,943induplicatebenefitsforcoststhatitsinsurancecovered.
Section312oftheRobertT.StaffordDisasterandEmergencyAssistanceAct,as
amended,statesthatnoentitywillreceiveassistanceforanylossforwhichithas
receivedfinancialassistancefromanyotherprogram,insurance,oranyothersource.

Atthetimeofourfieldwork,FEMAhadnotconductedafinalreviewofinsurance
proceedstheCountyreceivedfromitsinsurancecarrier.Asaresult,FEMAwasunsure
oftheamountofinsuranceproceedsitshouldapplytoadjustobligatedproject
amounts.Federalagenciesmustincreaseordecreaseobligatedfundswhenprobable
andmeasurableinformationbecomesknown.2

WereviewedtheCounty’sinsurancepolicy,scheduleofvalues,andsettlement
statementthatidentifiedthelocationofdamages,contractorstheCountyused,invoice
amounts,andamountsinsurancepaid.Basedonouranalysisofthisinformation,we
identified$557,943ofinsurancecoveragethatFEMAhadnotappliedtoreduce
approvedprojectcosts.Therefore,wequestionthe$557,943asshownintable2.

                              




2
 GovernmentAccountabilityOfficeͲPolicyandProceduresManual§3.5.D,BͲ300480,April9,2003;and
StatementofFederalFinancialAccountingStandards(SFFAS)Number5,paragraphs19,24,25,and29.



www.oig.dhs.gov                                                                                OIGͲ14Ͳ124ͲD
                                                   3
                                                
                     OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

             Table2.ProjectCostsThatInsuranceProceedsCovered
                                          
    Project                                                    Amount
    Number              DescriptionofDamages               Questioned
      373   MariettaCityLibrary–WaterExtraction                $2,008
      374   SweetwaterTennisCenter–Siding/Drywall                  1,910
      862   WindyHillSeniorCenter–WaterExtraction                4,323
      883   MountainViewLibrary–WaterExtraction                   2,435
      1081 PowderSpringsParkConcessionBuilding                   15,394
      1082 SweetwaterTennisCenterͲContents                         4,934
      1354 NWPlant–FenceandTree                                   1,270
      1355 NWPlant–WastewaterControls                              3,879
      1358 CountyLinePumpStationͲSubgrade                        2,002
      1563 NWPlant–GirtChambers                                  43,910
      1573 RLSuttonͲUVLightingSystemReplacement               234,068
      1580 RLSutton–ScumSystem                                   26,182
      1622 SixFlagsPumpStationRepair                             58,119
      1705 DebrisRemoval–EastCobbPark                           15,644
      1748 CobblestoneGolfCourse–variousrepairs                 11,600
      2102 NoondayCreekParkSandRemoval                             9,455
      2111 DebrisRemovalͲPowderSpringPark                        5,065
      2114 FullersParkFootballFieldRepairs                         1,400
      2165 PowderSpringsParkͲAthleticFieldRepairs              51,625
      2167 PowderSpringsSwimmingPoolRepairs                      62,720
    Total                                                          $557,943
                                                
                Source:FEMAProjectWorksheets,CountyRecords,andOIGAnalysis

Attheexitconference,Countyofficialspartiallydisagreedwiththisfinding,sayingthat
theybelievetheamountwillbelesswhenGeorgiareviewstheCounty’sclaimand
appliestheproceedsatprojectcloseout.However,ourpositionremainsunchanged
becausewebasedourfindingoninsurancedocumentationtheCountyprovidedtous.

FindingB:FundsPutToBetterUse

FEMAshoulddeobligate$427,944ofprojectfundingandputthosefundstobetteruse
becausetheCountynolongerneedsthefundingtocompleteprojectwork.Federal
appropriationslawsandtheStatementofFederalFinancialAccountingStandards
(SFFAS)requireFederalagenciestorecordobligationsintheaccountingrecordsona



www.oig.dhs.gov                                                                      OIGͲ14Ͳ124ͲD
                                                4
                                                      
                        OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

factualandconsistentbasisthroughoutthegovernment.3Theoverrecordingand
underrecordingofobligationsareequallyimproper,asbothpracticesmakeitimpossible
todeterminetheprecisestatusofFederalappropriations.Whenthepreciseamountis
notknownatthetimethattheobligationisincurred,agenciesappropriatelyrecordan
obligationbasedonthebestestimateatthetime.Agencies,however,mustperiodically
adjustthatobligationasmoreprecisedataontheliabilitybecomeavailable.Thatis,the
agencymustincreaseordecreaseobligatedfundswhenprobableandmeasurable
informationbecomesknown.Agenciesmustdocumentboththeinitialrecordingsand
theadjustmentstorecordedobligations.

UnderProject1573,FEMAobligated$552,051toreplacetheultravioletlightingsystem
attheR.L.Suttonfacility.TheCountycompletedtheauthorizedworkundertheproject
inFebruary2011for$234,068,or$317,983lessthantheamountFEMAobligated.
Similarly,underProject1622,FEMAobligated$168,080forvariousrepairstotheSix
FlagsPumpStation.TheCountycompletedtheauthorizedworkinDecember2009for
$58,119,or$109,961lessthantheamountFEMAobligated.Atthetimeofouraudit,
the$427,944($317,983and$109,961)ofexcessprojectfundingremainedobligated.
Therefore,FEMAshoulddeobligatethe$427,944andputthosefundstobetteruse.

Countyofficialsagreedwiththisfinding.

FindingC:ContractingProcedures

AlthoughtheCountyusedfullandopencompetitioninawardingcontractsfordisasterͲ
relatedworkandtookaffirmativestepstosolicitsmall,minority,andwomenͲowned
firms,theCountydidnotincludeallcontractprovisionsthat44CodeofFederal
Regulations(CFR)13.36(i)require.Federalregulation44CFR13.36(i)requires
subgranteestoincludespecificprovisionsintheircontracts,suchasEqualEmployment
Opportunitycompliance,compliancewithlaborlaws,andprohibitionof“kickbacks.”
Thesecontractprovisionsdocumenttherightsandresponsibilitiesofthepartiesand
minimizetheriskofcontractmisinterpretationsanddisputes.Countyofficialssaidthat
theywereunawareoftherequiredprovisions,butthattheywouldworkwiththe
County’slegalcounseltomodifythecontracts.

Countyofficialsagreedwiththisfinding.

                               

3
 GovernmentAccountabilityOfficePrinciplesofFederalAppropriationsLaw,3rdEdition,VolumeII,
February2006,Chapter7,SectionB:CriteriaforRecordingObligations(31U.S.C.Section1501).



www.oig.dhs.gov                                                                                    OIGͲ14Ͳ124ͲD
                                                     5
                                                          
                           OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

FindingD:SingleAuditRequirements

TheCountydidnotcomplywiththeSingleAuditAct’srequirementsforannualauditsof
Federalawards.4ThisActandOfficeofManagementandBudget’sCircularAͲ133,Audits
ofStates,LocalGovernments,andNonͲProfitOrganizations,helpensurethatgrant
recipientsspendFederalfundsproperly.ThecircularstatesthatnonͲFederalentities
thatexpend$500,000ormoreinayearinFederalawardsmustobtainasingleor
programspecificauditforthatyear.TheCountydidobtainannualsingleaudits,but
theseauditsdidnotcovertheFederalfundstheCountyexpendedfortheFEMAaward
(DisasterNumber1858).Countyofficialssaidthattheymistakenlyfailedtoprovidethe
County’sauditingfirmwiththefinancialinformationrelatedtoFEMAaward.Therefore,
FEMAandGeorgia,asthegrantee,didnothaveanopportunitytoreviewSingleAudit
reportresultsthatmighthavedetectedthesameconditionsourauditidentified.Asa
result,theseconditionscontinuedlongerthannecessary.

Countyofficialsagreedwiththisfinding.

                                              
                                   RECOMMENDATIONS

WerecommendthattheRegionalAdministrator,FEMARegionIV:

Recommendation#1:Disallow$557,943(Federalshare$418,457)ofprojectcoststhat
theCounty’sinsurancecoveredunlesstheCountyprovidesevidencethatinsurancedid
notcoverthecosts(findingA).

Recommendation#2:Deobligateandputtobetteruse$427,944(Federalshare
$320,958)ofunneededFederalfunding(findingB).

Recommendation#3:InstructGeorgiatoremindtheCountytoincludecontract
provisionsthat44CFR13.36(i)requirewhenacquiringgoodsandservicesunderaFEMA
award(findingC).
         
Recommendation#4:InstructGeorgiatoremindtheCountyofitsresponsibilityto
complywiththerequirementsoftheSingleAuditAct(findingD).


                                     

4
    TheSingleAuditActof1984,asamendedin1996.



www.oig.dhs.gov                                                                  OIGͲ14Ͳ124ͲD
                                                          6
                                            
                    OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

               DISCUSSIONWITHMANAGEMENTANDAUDITFOLLOWUP
                                             
WediscussedtheresultsofourauditwithCounty,Georgia,andFEMAofficialsduring
ouraudit.Wealsoprovidedadraftreportinadvancetotheseofficialsanddiscussedit
attheexitconferenceonJune25,2014.CobbCountyofficialspartiallyagreedtothe
findings.Weincludedtheircomments,asappropriate,inthebodyofthisreport.

Within90daysofthedateofthismemorandum,pleaseprovideourofficewitha
writtenresponsethatincludesyour(1)agreementordisagreement,(2)corrective
actionplan,and(3)targetcompletiondateforeachrecommendation.Also,please
includethecontactinformationforresponsiblepartiesandanyothersupporting
documentationnecessarytoinformusaboutthecurrentstatusoftherecommendation.
Untilwereceiveandevaluateyourresponse,wewillconsidertherecommendations
openandunresolved.

ConsistentwithourresponsibilityundertheInspectorGeneralAct,wewillprovide
copiesofourreporttoappropriatecongressionalcommitteeswithoversightand
appropriationresponsibilityovertheDepartmentofHomelandSecurity.Wewillpost
thereportonourwebsiteforpublicdissemination.

MajorcontributionstothisreportareDavidKimble,Director;AdrianneBryant,Audit
Manager;JohnSchmidt,AuditorͲinͲCharge;andOmarRussell,Auditor.

Pleasecallmewithanyquestionsat(202)254Ͳ4100,oryourstaffmaycontact
DavidKimble,Director,EasternRegionalOffice,at(404)832Ͳ6702.
                             




www.oig.dhs.gov                                                                   OIGͲ14Ͳ124ͲD
                                            7
                                                                         
                                     OFFICE OF INSPECTOR GENERAL
                                                   Department of Homeland Security

                                                                                                                                            EXHIBIT

                                  ScheduleofProjectsAuditedandQuestionedCosts
                                                           
                                                                             Net                                 Funds              Federal
 Project     Category                                                      Amount          Amount             Putto              Share               
 Number       ofWork                  ProjectScope                       Awarded        Questioned         BetterUse            (75%)           Finding
LargeProjects:
   593           A      DebrisRemoval–CountyWide                        $378,177       $0    $0   $0
  1563           F      NWPlant–GirtChambers                                67,769           43,910                         0       32,933           A
  1573           E      RLSuttonͲUVLightingSystemReplacement              552,051         234,068              317,983           414,038           A,B
  1594           C      RegentsParkLaneRoadRepair                          167,838                     0                    0                 0
  1622           E      SixFlagsPumpStationRepair                           168,080           58,119             109,961           126,060           A,B
  1914           C      Arthur’sCourtNERoadRepairs                          197,647                     0                    0                 0
  1953           E      FireTruckReplacement                                 165,996                     0                    0                 0
  2143           C      RunningFoxDriveRoadRepairs                          165,816                     0                    0                 0
  2165           G      PowderSpringsParkͲAthleticFieldRepairs            141,247           51,625                         0       38,719           A
  2167           G      PowderSpringsSwimmingPoolRepairs                     97,391           62,720                         0       47,040           A
  2169           C      NetherstoneDriveNERoadRepairs                       276,369                     0                    0                 0
  2315           A      DemolitionofPrivateStructures                        301,949                     0                    0                 0
Subtotal                                                                     $2,680,330        $450,442            $427,944           $658,790
SmallProjects:
   373           E      MariettaCityLibrary–WaterExtraction           $2,191     $2,008          $0    $1,506           A
   374           E      SweetwaterTennisCenter–Siding/Drywall                 12,721           1,910                        0         1,432           A
   862           E      WindyHillSeniorCenter–WaterExtraction                 4,431          4,323                        0         3,242           A
   883           E      MountainViewLibrary–WaterExtraction                    2,460          2,435                        0         1,826           A
   891           E      ProctorCreekPumpRepairs                               18,903               0                        0             0
  1081           E      PowderSpringsParkConcessionBuilding                   23,138         15,394                         0       11,546            A
  1082           E      SweetwaterTennisCenter–Contents                         5,580          4,934                        0         3,701           A
  1354           G      NWPlant–FenceandTree                                  1,331          1,270                        0           952           A
  1355           F      NWPlant–WastewaterControls                              8,399          3,879                        0         2,909           A
  1358           F      CountyLinePumpStationͲSubgrade                        2,288          2,002                        0         1,502           A
  1580           F      RLSutton–ScumSystem                                  26,246         26,182                         0       19,636            A
  1661           E      VehicleRepair/Replacement                               40,648               0                        0             0
  1705           A      DebrisRemoval–EastCobbPark                           17,058         15,644                         0       11,733            A
  1748           G      CobblestoneGolfCourse–variousrepairs                 12,974         11,600                         0         8,700           A
  1954           E      VehicleRepair/Replacement                               11,917               0                        0             0
  2102           G      NoondayCreekParkSandRemoval                           56,303           9,455                        0         7,091           A
  2103           E      PowderSpringsParkPressbox/Dugouts                     11,325               0                        0             0
  2111           A      DebrisRemovalͲPowderSpringPark                      11,305           5,065                        0         3,799           A
  2114           G      FullersParkFootballFieldRepairs                       41,809           1,400                        0         1,050           A
Subtotal                                                                    $ 311,027        $107,501            $0     $80,625
Totals                                                                      $2,991,357         $557,943            $427,944           $739,415
                                                                                                                                
                                                                                                                                
                                                                                                                                
       
                                                  




       www.oig.dhs.gov                                                                                                                        OIGͲ14Ͳ124ͲD
                                                                         8
                                           
                    OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

                                                                        Appendix
                                                                                    
                                   ReportDistribution

DepartmentofHomelandSecurity
Secretary
ChiefofStaff
ChiefFinancialOfficer
UnderSecretaryforManagement
ChiefofPrivacyOfficer
AuditLiaison,DHS

FederalEmergencyManagementAgency
Administrator
ChiefofStaff
ChiefFinancialOfficer
ChiefCounsel
ChiefProcurementOfficer
Director,RiskManagementandCompliance
AuditLiaison,FEMARegionIV
AuditLiaison,FEMA(JobCodeGͲ14Ͳ016)

OfficeofManagementandBudget
Chief,HomelandSecurityBranch
DHSOIGBudgetExaminer

RecoveryAccountabilityandTransparencyBoard
Director,Investigations,RecoveryAccountabilityandTransparencyBoard

Georgia
Director,GeorgiaEmergencyManagementAgency
StateAuditor,Georgia

Subgrantee
DivisionManagerofFinance,CobbCounty

                             




www.oig.dhs.gov                                                               OIGͲ14Ͳ124ͲD
                                           9
                                        
                   OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security

Congress
SenateCommitteeonAppropriations,SubcommitteeonHomelandSecurity
SenateCommitteeonHomelandSecurityandGovernmentalAffairs
HouseCommitteeonAppropriations,SubcommitteeonHomelandSecurity
HouseCommitteeonHomelandSecurity
HouseCommitteeonOversightandGovernmentReform
HouseCommitteeonTransportationandInfrastructure







www.oig.dhs.gov                                                         OIGͲ14Ͳ124ͲD
                                       10
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
